               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           City Delivery Operations —
            Lancaster Carrier Annex

         Management Advisory Report




                                         September 28, 2012

Report Number DR-MA-12-003
                                                                    September 28, 2012

                                                           City Delivery Operations —
                                                              Lancaster Carrier Annex

                                                         Report Number DR-MA-12-003



BACKGROUND:
Delivery operations has the highest           because management did not reinforce
fixed cost in the U.S. Postal Service,        Postal Service policies and procedures
making up more than 30 percent of the         for supervising city delivery operations,
Postal Service operating expenses. City       consistently using available vehicle
carriers used more than 349.5 million         tracking technology such as Global
total office and street workhours in fiscal   Positioning Systems to track route time
year 2011. The Flats Sequencing               and ensuring carriers use efficient office
System is a critical component of the         and street practices. Also, we noted a
Postal Service’s strategy to contain          low supervisor-to-employee ratio as a
costs through automation of the flat mail     contributing factor. Enhanced city
stream. Mail sorted in walk sequence          delivery supervision and carrier
order from this system usually results in     practices could result in annualized
earlier departures by the carrier and         workhour savings of over $515,800.
reduced office time due to the reduced
mail volume the carrier needs to sort.        WHAT THE OIG RECOMMENDED:
                                              We recommended the vice president,
The Lancaster Carrier Annex, Lancaster        Eastern Area Operations, reduce
PA, is in the Central Pennsylvania            workhours by 12,339 in FYs 2013 and
District, Eastern Area, and has 109           2014. We also recommended
delivery routes. The unit expended            supervisors set expectations, discuss
about 282,152 total office and street         performance, provide daily oversight of
workhours in fiscal year 2011. In             street operations, use available vehicle
response to a request from the vice           tracking technology to track route time
president, Eastern Area Operations, our       and promote positive office supervision
objective was to assess the                   which could help to avoid unnecessary
effectiveness of city delivery operations     costs. Further, we recommended
at the Lancaster Carrier Annex.               reinforcing street operation policies and
                                              procedures to carriers and addressing
WHAT THE OIG FOUND:                           carrier performance when it is not in
The Lancaster Carrier Annex has               accordance with established office and
opportunities to enhance city delivery        street delivery procedures.
efficiency and reduce 12,339 workhours
annually. This condition occurred             Link to review the entire report
September 28, 2012

MEMORANDUM FOR:            JORDAN M. SMALL
                           VICE PRESIDENT, EASTERN AREA OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Management Advisory Report – City Delivery Operations –
                           Lancaster Carrier Annex
                           (Report Number DR-MA-12-003)

This report presents the results of our review of City Delivery Operations at the
Lancaster Carrier Annex (Project Number 12XG023DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Dean J. Granholm
    Elizabeth A. Schaefer
    Severo Garza
    Joshua D. Colin
    Corporate Audit and Response Management
City Delivery Operations -                                                                                        DR-MA-12-003
 Lancaster Carrier Annex


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

More Efficient City Delivery Operations ........................................................................... 2

Supervising City Delivery Operations .............................................................................. 2

   Setting Expectations and Following Up on Previous Street Performance ................... 3

   Street Supervision ....................................................................................................... 3

   Supervisors’ Workstations Promote Positive Supervision ........................................... 4

More Efficient Carrier Office Practices ............................................................................ 4

   Handling Flats Sequencing System Mail ..................................................................... 5

   Talking and Wandering Around the Facility ................................................................. 5

   Accountable Item Procedures...................................................................................... 5

More Efficient Carrier Street Practices ............................................................................ 5

   More Efficient Vehicle Loading .................................................................................... 6

   Using Satchels to Hold Mail and Fingering Mail Between Deliveries ........................... 7

Other Matters .................................................................................................................. 8

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ....................................................................... 10

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 11

Appendix B: Monetary Impact ....................................................................................... 13
City Delivery Operations -                                                                          DR-MA-12-003
 Lancaster Carrier Annex


Appendix C: Prior Audit Coverage ................................................................................ 15

Appendix D: Management’s Comments ........................................................................ 19




                                              Restricted Information
City Delivery Operations -                                                                            DR-MA-12-003
 Lancaster Carrier Annex



Introduction

This report presents the results of our review of city delivery operations at the Lancaster
Carrier Annex (Project Number 12XG023DR000). The report addresses operational risk
and is one of two reviews conducted by the U.S. Postal Service Office of Inspector
General (OIG) in response to a request from the vice president, Eastern Area
Operations.1 Our objective was to assess the effectiveness of city delivery operations at
the Lancaster Carrier Annex. See Appendix A for additional information about this
review.

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in fiscal year (FY) 2011 declined by another 3 billion pieces to 168 billion,
dropping total mail volume to levels not seen since 1992. Since 2007, mail volume has
dropped by about 44 billion pieces. In contrast, delivery points have increased by more
than 2.3 million since 2008.2 The Postal Service must improve operational efficiency to
reduce costs while facing financial losses from declining mail volume. The Flats
Sequencing System (FSS)3 is a critical component of the Postal Service’s cost
containment strategy through automation of the flat mail stream. FSS implementation
usually results in earlier departures by carriers and significantly reduced earned office
time.

The Lancaster Carrier Annex, Lancaster PA, located in the Central Pennsylvania
District, Eastern Area, has 109 delivery routes and expended 282,152 total office and
street workhours in FY 2011. In March 2011, the Lancaster Carrier Annex began
receiving FSS mail.

Conclusion

The Lancaster Carrier Annex could increase overall efficiency and reduce 12,339
workhours annually. The delivery unit also had the highest office and street workhour
variances4 in the Central Pennsylvania District despite implementation of the FSS.
Management did not always reinforce Postal Service policies and procedures, use
Global Positioning System (GPS) technology for supervising city delivery operations,
and ensure carriers use efficient office and street practices. An increased focus on
1
  On April 23, 2012, the vice president, Eastern Area Operations, requested the OIG review city delivery operations at
the Lancaster Carrier Annex, Lancaster, PA, and the Brick Main Post Office, Brick, NJ, to determine why these two
offices were using more city delivery hours after FSS implementation.
2
  City delivery is responsible for 1,097,020 of the 2,390,741 increased delivery points from FYs 2007 through 2011.
3
   The FSS machines sort flat-sized mail such as large envelopes, newspapers, catalogs, circulars, and magazines
into delivery sequence at high speeds and at a much higher productivity rate than the manual process. FSS
processed mail will arrive at the delivery unit in walk sequence order, ready for delivery by the carrier with no
additional mail movement or manual sorting required.
4
  This is the difference between the office time projected it would take for carriers to prepare the mail for delivery
compared to the actual amount of time carriers used in the office preparing mail for delivery. A positive variance
occurs when a carrier takes more time on a route than what is projected in the Delivery Operation Information System
(DOIS). A negative variance occurs when a carrier takes less time than projected in DOIS.
                                                              1
City Delivery Operations -                                                                                   DR-MA-12-003
 Lancaster Carrier Annex


enhanced city delivery practices will result in reduced workhours and save more than
$515,800 annually5 (see Appendix B).

More Efficient City Delivery Operations

The Lancaster Carrier Annex could increase overall efficiency and reduce 12,339
workhours annually,6 saving 22 minutes on each route per day. The delivery unit had
the highest variances in the Central Pennsylvania District, using more than 4,909 office7
and 6,297 street8 workhours than projected for FY 2011 (see Table 1).

        Table 1: Top 10 Delivery Units in Districts with Highest Office and Street
                                        Variances

                                                   Office           Street             Total             District
             Station Names                       Variance          Variance           Variance           Ranking
    Lancaster Carrier Annex                          4,909              6,297           11,206                    1
    Scranton Main Post Office                        2,602                666             3,268                   2
    Allentown Airport Branch                      (1,493)9              4,455             2,962                   3
    Wilkes-Barre Main Post office                    2,980                (43)            2,937                   4
    Hazleton Main Post Office                        1,002              1,060             2,062                   5
    Camp Hill Main Post Office                         446              1,584             2,030                   6
    Carlisle Main Post Office                          583              1,285             1,868                   7
    West Scranton Branch                               390              1,298             1,687                   8
    Harrisburg Uptown Station                        (206)              1,841             1,635                   9
    Williamsport Main Post Office                      107              1,120             1,227                 10
Source: OIG analysis based on Postal Service data from the Enterprise Data Warehouse (EDW).

Supervising City Delivery Operations

An increased focus on effective supervisory practices would allow management to
reduce city delivery office and street workhours. Our review of the Lancaster Carrier
Annex delivery unit determined that management did not always reinforce Postal
Service policies and procedures for supervising city delivery office and street operations
which allowed for some inefficient delivery practices. For example, management needs
to ensure that:

     Supervisors set daily expectations and follow up on the previous day’s street
      performance.
5
  The annualized savings was calculated by taking the FYs 2013 and 2014 savings and dividing by two.
6
  The 12,339 annual workhour savings represent 740,340 minutes (12,339 workhours multiplied by 60 minutes).
Dividing the more than 740,340 minutes by 109 routes in the Lancaster Carrier Annex and then dividing that by 303
annual days.
7
  Office time is time spent in the office casing mail for delivery. Casing or routing mail is the act of placing letter and
flat mail in the separations of carrier cases. Also refers to the process of placing flat mail in delivery sequence.
8
  Street time is time spent on routes to deliver mail to residences and businesses.
9
  A negative variance occurs when a route uses fewer street and/or office hours than projected.



                                                              2
City Delivery Operations -                                                                           DR-MA-12-003
 Lancaster Carrier Annex


    There is a consistent supervisory presence on the street.

    Supervisors’ workstations promote positive supervision.

Setting Expectations and Following Up on Previous Street Performance

We observed supervisors not consistently setting expectations for carriers’ street leave
and return times or engage in a dialogue with the carrier about expectations for the day.
We also observed that delivery unit management did not consistently follow up on the
previous day’s street performance. The DOIS Route Carrier Performance Report
provides the supervisor with information needed to discuss carrier performance.
Although supervisors printed the report, they did not always discuss it with carriers.
Management stated that some 204Bs10 are reluctant to address carrier performance
because they are acting supervisors and do not want to alienate co-workers.

Although the Lancaster Carrier Annex has GPS11 devices on some of its delivery
vehicles (which gives managers a tool to see performance on the street), we did not
observe GPS reports being used routinely as a tool to address why carriers may have
come in later than expected on the previous day. If a carrier does not meet performance
standards, a supervisor must investigate and discuss performance deficiencies with the
carrier.12 Furthermore, management should also take advantage of opportunities to
discuss good performance with a carrier.

Street Supervision

Supervisors did not consistently provide sufficient oversight of street operations as
required by Postal Service policy.13 Our observations found that delivery unit
supervisors were not always performing daily street supervision.14 Supervisors stated
that large amounts of administrative work impeded them from being able to conduct
effective daily street supervision of their carriers. Street management is necessary to
maintain both the projected street time of the routes and the customer’s expected time
of delivery.

One effective tool used to assist in conducting street supervision is a Postal Service
(PS) Form 3999, Inspection of Letter Carrier Route, documenting the carrier's ability to
deliver their route. Supervisors are required to complete a PS Form 3999 for each route
10
   A craft employee working as an acting supervisor. eHRSSC Forms, Acronyms and Glossary of HR Terms, Version
1.0, Revised October 6, 2011.
11
   Global Positioning System is an electronic system that uses satellites to determine the position of a
vehicle.
12
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 5-7.
13
   Handbook, M-39, Management of Delivery Services, Section 134.12, March 1998.
14
   During our site visit to the Lancaster Carrier Annex in June 2012, management informed us of a new initiative of
the Central Pennsylvania District, to improve city carrier performance and promote accountability for street
supervision. The initiative instructed Executive and Salary Administration (EAS) level 24 level postmasters and Post
Office Operations managers, regardless of grade to ride along with the carriers at least once a month. Handbook
M-39, Section 134.11, states that street management is a natural extension of office management and all carriers are
to be notified to expect daily supervision on the street.


                                                         3
City Delivery Operations -                                                                             DR-MA-12-003
 Lancaster Carrier Annex


at least annually. Having a current PS Form 3999 allows the supervisor to know exactly
the carrier's line-of-travel and where a carrier should be and at what time. A current15
PS Form 3999 helps a supervisor monitor street performance by providing the
supervisor with information on how long it should take for a section of deliveries.

Supervisors’ Workstations Promote Positive Supervision

Supervisors’ workstations did not always promoted positive supervision, specifically mail
transport containers and bookcases blocked one supervisor’s view of the carriers.
Postal Service policy states that supervisors’ desks or workstations should be in an area
that allows maximum visual coverage of the workroom floor without impeding
operations. During our review management stated the Lancaster Carrier Annex was
scheduled to begin rearranging the workroom floor in June 2012, including moving the
supervisor’s workstation. As of September 2012, the reconfiguring of the workroom floor
had not been completed.

More Efficient Carrier Office Practices

In addition to using more workhours than necessary, we also noted an increase in office
variance time of 8,973 workhours from October through March of FYs 2011 and 2012,
even though they implemented FSS (see Table 2).

              Table 2: Analysis of Office Variance: Lancaster Carrier Annex


   Fiscal
    Year              Oct.            Nov.             Dec.            Jan.          Feb.        March         Total
 FY 2012               1,652           1,948            2,286           2,272         1,847       1,490        11,495
 FY 2011                 320             253             1328             308           114         199         2,522
 Difference            1,332           1,695              958           1,964         1,733       1,291         8,973
Source: OIG Analysis using Postal Service Data from the Enterprise Data Warehouse (EDW).

The OIG also analyzed the unit route variances for office efficiency and found that 53 of
the 109 routes in FY 2011 and 77 of the 109 routes in FY 2012 accounted for 80
percent of the increase in office variance workhours.

We observed opportunities for carriers to be more efficient and save office time while
preparing mail for delivery. These opportunities include:

    Appropriate handling of FSS mail.
    Minimizing talking and wandering around facility.
    Following established accountable item procedures.



15
  Our review also noted that the district inspected all routes at the Lancaster Carrier Annex in April and May 2012
and revised all PS Form 3999s; therefore, no recommendation is required related to this issue.


                                                          4
City Delivery Operations -                                                                                   DR-MA-12-003
 Lancaster Carrier Annex


Handling Flats Sequencing System Mail

Some carriers were unnecessarily casing16 FSS mail. FSS mail has been presorted into
delivery sequence in order of the line-of-travel on the route. FSS mail is not to be cased
however, as part of a memorandum of understanding between the Postal Service and
the National Association of Letter Carriers, carriers delivering to park-and-loop and foot
routes are allowed to collate FSS mail to ensure that carriers only take three bundles. In
March 2011, the Lancaster Carrier Annex began receiving FSS mail. The expected
result was a decline in office time. However, the office variance for the first and second
quarter of FY 2012 increased by 8,973 workhours, in part due to unnecessary handling
of FSS mail.

Talking and Wandering Around the Facility

We observed some carriers talking and wandering around the facility. For example,
multiple carriers would be away from their cases for several minutes at a time. Some
would be just making a loop around the station, walking by the Delivery Point Sequence
(DPS) mail, stopping and looking at the hot case, and visiting with other carriers. All of
this was done with caseable mail at their workstation. Postal Service policy17 states that
carriers should attend diligently to their work and refrain from loud talking.

Accountable Item Procedures

We also observed several carriers were standing at the accountable item cart forming a
line instead of waiting for the accountable mail to be distributed at their case. Postal
Service policy18 states that accountable items must be available for carriers in a timely
manner so as not to cause delays. Because carrier time should be minimized in the
accountable operation, use of a mobile accountable cart19 is highly encouraged.

More Efficient Carrier Street Practices

In addition to using more workhours than necessary, we also noted an increase in street
variance time of 8,046 hours from October through March of FYs 2011 and 2012, even
though they implemented FSS (see Table 3).




16
   Casing or routing mail is the act of placing letter and flat mail in the separations of carrier cases. Also refers to the
process of placing flat mail in delivery sequence.
17
   Handbook M-41, Carriers Duties and Responsibilities, Section 112.25.
18
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 3-1, 2007.
19
   Clerks use accountable carts to transport items from the accountable cage to carriers.


                                                              5
City Delivery Operations -                                                                                  DR-MA-12-003
 Lancaster Carrier Annex



           Table 3: Analysis of Delivery Street Variance: Lancaster Carrier Annex


       Fiscal
        Year             Oct.            Nov.             Dec.           Jan.          Feb.         Mar.         Total
     FY 2012              2,051           2,441            1,703         1,863          1,805       1,786        11,649
     FY 2011                393             742              994           793            484         197         3,603
     Difference           1,658           1,699              709         1,070          1,321       1,589         8,046
 Source: OIG Analysis using Postal Service data from EDW.

The OIG also analyzed the unit route data and found that 28 of the 109 routes in FY
2011 and 49 of the 109 routes in FY accounted for 80 percent of the increase in street
variance.

We observed opportunities for carriers to be more efficient and save street time while
delivering mail. These opportunities include:

     More efficient loading of vehicles.

     Using satchels to hold mail.

     Fingering20 mail between deliveries.

     Following the line-of-travel.21

     Curtailing excessive cell phone use and lengthy visits with other carriers and
      customers.

More Efficient Vehicle Loading

We observed opportunities for carriers to more efficiently load their vehicles before they
depart for the street. Specifically, some carriers were unnecessarily making multiple
trips to retrieve mail between the delivery unit and their postal vehicles and talking and
loading slowly. Postal Service policy22 states that the carrier should take all mail for
delivery to the vehicle at the same time using a hamper and avoiding extra trips and
proceed directly to their vehicles and load the mail. Postal Service policy also states that
managers must supervise loading area activities to prevent delays in carriers departing
for the street.




20
   The final separation of mail for the next several stops along with the verification of the address for delivery.
21
   The specific order of deliveries on a carrier’s route, as well as the streets traveled to service these deliveries.
22
   Handbook M-39, Management of Delivery Services, March 1998, Sections 125.1 and 125.22.


                                                             6
City Delivery Operations -                                                                                DR-MA-12-003
 Lancaster Carrier Annex


Using Satchels to Hold Mail and Fingering Mail Between Deliveries

We observed that some carriers did not consistently load their satchels or use a satchel
to deliver mail on park-and-loop routes.23 Inconsistent or improper use of satchels
resulted in carriers having to more frequently retrieve mail from their vehicle thus
incurring additional street time. Postal Service procedures require carriers delivering
mail on park-and-loop routes to use their vehicles as movable relay boxes24 from which
the carrier withdraws a substantial amount of mail and places it into his satchel before
beginning the route. Carriers are required to carry the appropriate amount of mail, up to
the 35-pound limit, to complete each assigned relay without additional trips to the
vehicle or relay box25 (see Illustration 1).


              Illustration 1: Carrier Delivering Mail Without Required Satchel




              Source: OIG photo taken May 2012.

We also observed some carriers not “fingering mail” between deliveries to place mail
pieces in order while delivering on park-and-loop routes. Postal Service policy26 states
that carriers are required to finger mail between deliveries to avoid having to sort
through mail while standing at the customer’s box and incurring additional street time.



23
   Park-and-loop routes are routes where the carrier drives to the general delivery location, and then effects door-to-
door delivery while on foot.
24
   Bundles or strapped mail that the carrier prepares in sacks for delivery to boxes on the carrier’s line-of-travel. When
the carrier completes delivery of carry-out mail, they may pick up additional mail from relay boxes and continue this
process until the entire route is served.
25
   Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 273.
26
   Handbook M-39, Section 125.6, and Handbook M-41, Section 321.5.


                                                            7
City Delivery Operations -                                                                             DR-MA-12-003
 Lancaster Carrier Annex


In addition, carriers did not always follow their established line-of-travel. Postal Service
policy27 states that carriers must deliver mail along a prescribed route and are required
to follow their authorized line-of-travel at all times. As a result, carriers incurred extra
street time by unnecessarily delivering routes out-of-order.

Lastly, we observed some carriers excessively talking on cell phones, to customers, and
other carriers during street delivery. Specifically, we observed one route carrier remain
on a cell phone in excess of 10 minutes while continuing to deliver the mail. Also, we
observed two carriers stop to visit each other in excess of 5 minutes and another
incident where a carrier stopped and visited with a customer in excess of 10 minutes.

Improved carrier supervision and more efficient carrier practices would increase the
Lancaster Carrier Annex’s overall efficiency and allow the Postal Service to reduce
12,339 workhours. We estimated this would result in savings of $515,838 annually (see
Appendix B).

Other Matters

The Lancaster Carrier Annex has 109 routes, three zones,28 and one supervisor for
each zone. In two of the three zones the employee-to-supervisor ratio is about 43 to 1.
Management explained that the high supervisory ratio was because two of their five
authorized supervisor positions were vacant. An analysis of the
employee-to-supervisor ratio using the Postal Service’s Supervisor Workload Credit
Worksheet indicated that about six supervisors are needed at the Lancaster Carrier
Annex. Also, according to our research, the employee-to-supervisor ratio and resulting
span-of-control varies based on the type and complexity of the work. However, it is
generally thought that for less complex work, a ratio of one supervisor to 15 to 25
employees is effective.29

Recommendations

We recommend the vice president, Eastern Area Operations:

1. Reduce 12,339 office and street workhours in fiscal years 2013 and 2014 to achieve
   an annualized economic impact of $515,838,

2. Ensure that supervisors establish and discuss performance expectations, and
   consistently oversee daily street operations using management tools and reports to
   avoid the unnecessary labor costs.

3. Ensure that supervisors consistently use available vehicle tracking technology such
   as Global Positioning Systems to track route time.
27
   Handbook M-41, Section 122.11, and Handbook M-39, Section 125.3.
28
   A method of grouping carrier routes by three-digit ZIP Code prefix areas of dispatch and receipt and proximity to
each other by line-of-travel.
29
   Span of Control (http://www.businessdictionary.com/definition/span-of-control.html) is defined as: “the number of
subordinates that a manager or supervisor can directly control.”


                                                          8
City Delivery Operations -                                                                         DR-MA-12-003
 Lancaster Carrier Annex



4. Ensure supervisors’ workstations have clear line-of-sight of carriers’ workstations to
   promote positive office supervision.

5. Ensure management reinforces Postal Service policies and procedures for city
   delivery street operations to help eliminate carrier inefficient practices during office
   and street operations.

6. Ensure supervisors address carrier performance when a carrier does not follow
   established delivery procedures in the office and on the street.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.

Management agreed with recommendation 1 and the savings of 12,339 workhours in
FYs 2013 and 2014. Management stated that they implemented route adjustments on
July 14, 2012 and, based on these adjustments, they expect a reduction of at least
12,339 workhours at the Lancaster Carrier Annex. Estimated completion date is
September 30, 2014.

Management agreed with recommendation 2 that there are costly, inefficient delivery
practices at the Lancaster Carrier Annex. Management outlined actions they have or
plan to take to promote greater efficiency including enhanced senior management
oversight and a change in unit management to help provide more stability in the office.
The estimated completion date is October 27, 2012.

Management agreed with recommendation 3 and the need to consistently use vehicle
tracking technology. However, management stated the Postal Service’s national GPS
contract will expire on September 28, 2012 and devices will be deactivated. Therefore,
the unit is establishing a procedure to perform 15 Managed Service Point (MSP)30
scans per route to assist monitoring street performance. The estimated completion date
is October 27, 2012.

Management agreed with recommendation 4 that supervisor's workstations have to
have a clear line-of-sight of the carriers. A work order has been submitted to
maintenance to make the office more efficient. The estimated completion date is
October 27, 2012.

Management agreed with recommendation 5 that there are inefficient office and street
practices. Management provided Lancaster Carrier Annex managers with delivery
training on June 4, 2012; implemented a district street team to enhance management’s
street presence; and enhanced local management’s focus on efficient vehicle loading,


30
   MSP is a tool designed to monitor consistency of delivery time and enhance street management through the use of
the MDCD (Mobile Data Collection Device).


                                                        9
City Delivery Operations -                                                    DR-MA-12-003
 Lancaster Carrier Annex


satchel use, fingering mail, following line-of-travel, and phone use. The estimated
completion date is October 27, 2012.

Management agreed with recommendation 6 regarding the need for supervisors to
address carrier office and street performance. Management stated there is now daily
interaction with employees; and supervisors have begun setting expectations,
monitoring time-wasting practices and addressing issues with proper disciplinary
actions. Also, carrier start times have been changed to eliminate unnecessary waiting.
The estimated completion date is October 27, 2012. See Appendix D for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1, 2, 5, and 6 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                            10
City Delivery Operations -                                                    DR-MA-12-003
 Lancaster Carrier Annex


                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. While the mail volume continues to decline, the number of
delivery points continues to increase by about 700,000 annually. The Postal Service
must improve operational efficiency to reduce costs while facing financial losses from
declining mail volume.

Despite a high degree of automation, mail delivery remains labor intensive. Labor costs
comprise nearly 80 percent of the Postal Service's costs. Delivery operations have the
highest fixed cost in the system, making up more than 30 percent of the Postal Service's
operating expenses. The delivery carrier’s functions consisting of both office and street
operations used 349,564,154 total workhours31 in FY 2011.

To offset labor and costs during FY 2011, the Postal Service adjusted routes, used
growth management programs and route optimization tools, and took advantage of
continuous improvement programs to keep cost growth to a minimum. For example, the
Postal Service increased the percentage of flat mail sorted in delivery point sequence
using FSS which is a critical component of the strategy to contain costs through the
automation of the flat mail stream. The implementation of FSS usually results in
significant changes in carrier office time because of reduced cased residual volume
workload.

The Lancaster Carrier Annex in Lancaster, PA is in the Central Pennsylvania District
and has 109 delivery routes and expended about 282,152 total office and street
workhours in FY 2011. In March of 2011, the Lancaster Carrier Annex began receiving
FSS mail.

Objective, Scope, and Methodology

Our objective was to assess the effectiveness of city delivery operations at the
Lancaster Carrier Annex. To accomplish our objective we:

     Reviewed office and street operations, discussed operations with management
      officials, and assessed potential opportunities for reducing workhour costs.

     Reviewed and analyzed delivery unit data from the EDW, DOIS, and MSPs.

     Reviewed FY 2011 and FY 2012 DOIS data to evaluate office performance and
      judgmentally select a sample of 10 routes with the highest variances to observe


31
     DOIS workhours queried from the EDW.


                                                11
City Delivery Operations -                                                   DR-MA-12-003
 Lancaster Carrier Annex


    street performance and determine causes for overage, such as changes on routes,
    volume, FSS, new delivery points.

   Reviewed FSS mail handling policy and observed carrier FSS mail handling
    procedures.

   Discussed findings with management and included their comments, where
    appropriate.

   Reviewed documentation and applicable policies and procedures for city delivery
    and Postal Service Handbooks M-39, Management of Delivery Services and M-41,
    Carriers Duties and Responsibilities.

We conducted this review from May through September 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 28, 2012, and included their comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed a limited data integrity review
to support our data reliance. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

The U.S. Postal Service OIG has issued nine reports related to the objective of this
review within the last three years. See Appendix C for additional information about the
prior audits.




                                           12
City Delivery Operations -                                                                               DR-MA-12-003
 Lancaster Carrier Annex



                                      Appendix B: Monetary Impact

          Recommendation                          Impact Category                              Amount
                1                              Funds Put to Better Use                        $1,031,676
                2                                Questioned Costs32                             868,388
              Total                              Monetary Impact                              $1,900,064
     Source: OIG.

     Funds Put to Better Use Methodology

     We calculated funds put to better use for reducing city carrier workhours using the
     Lancaster Carrier Annex city carrier overtime rate of $41.43 for FY 2013, with an
     escalation factor of 1.8 percent for the 2-year projection totaling $1,031,676.
     Annualized by dividing 1,031,676 by 2 that equaled an annualized amount of
     $515,838.

     The 12,339 annual workhour savings represent 740,340 minutes (12,339
     workhours multiplied by 60 minutes). Dividing the more than 740,340 minutes by
     109 routes in the Lancaster Carrier Annex and then dividing that by 303 annual
     days equals a reduction savings of about 22 minutes per route per day.

     Questioned Costs Methodology

     Our estimate of $868,388 in questioned costs included questioned costs of
     $283,895 for FY 2011 and $584,493 for the first three quarters of FY 2012. Our
     calculation was based on the reduction of 7,23333 workhours at an annual cost
     savings of $283,895 for FY 2011 and a reduction of 14,361 workhours at a cost of
     $584,493 for the first three quarters of FY 2012.

        For FY 2011 we determined 53 routes represented 80 percent of office variance
         workhours, totaling 5,047 workhours. We calculated the average office variance
         of the remaining 56 routes, which resulted in 23 hours (1,282 hours divided by 56
         routes equals 22.89 hours 23 rounded up). We then subtracted the 23 average
         office variance hours from each of the 53 high variance routes. This resulted in
         3,828 hours which we then multiplied by the city carrier hourly rate of $39.25 for
         a total of $150,249 in questioned costs.

        For FY 2012, we determined 77 routes represented 80 percent of office variance
         workhours, totaling 11,618 hours. We calculated the average office variance of
         the remaining 32 routes, which resulted in 92 hours (2,950.23 hours divided by

32
   A questioned cost is categorized as unnecessary, unreasonable, unsupported or an alleged violation of law,
regulation or contract.
33
   Excess office hours of 3,828 and excess street hours of 3,405 multiplied by the delivery unit city carrier overtime
labor rate of $39.25 for FY 2011. Excess office hours of 4,419 and excess street hours of 9,942 multiplied by the
delivery unit city carrier overtime rate of 40.70 for FY 2012.


                                                           13
City Delivery Operations -                                                                DR-MA-12-003
 Lancaster Carrier Annex


           32 routes equals 92.20 hours 92 rounded down). We then subtracted the 92
           average office variance workhours from each of the 77 high variance routes. This
           resulted in 4,419 workhours which we then multiplied by the city carrier hourly
           rate of $40.70 for a total of $179,853 in questioned costs.

          For FY 2011 we determined 28 routes represented 80 percent of street variance
           workhours, totaling 3,741 workhours of the district’s total street variance in FY
           2011. Also, we calculated the average street variance of the remaining 81 routes,
           which resulted in 1234 hours. We then subtracted the 12 average street variance
           workhours from the hours for each of the 28 routes. This resulted in 3,405 hours
           above the projected street workhours which we multiplied by the hourly rate of
           $39.25 for a total of $133,646 questioned costs.

          For FY 2012, we determined 49 routes represented 80 percent of the street
           variance workhours totaling 12,539 hours of the district’s total street variance in
           FY 2012. Also, we calculated the average street variance of the remaining 60
           routes, which resulted in 5335 hours. We then subtracted the 53 average street
           variance hours from the hours for each of the 49 routes. This resulted in 9,942
           hours above the projected street hours which we multiplied by the hourly rate of
           $40.70 for a total of $404,639 questioned costs.

       We calculated total cost for office and street variance of $283,895 in FY 2011 and
       $584,493 for the first three quarters of FY 2012, resulting in a total of $868,388 in
       questioned costs for the 2 years.




34
     We divided 991.42 hours by 81 routes which equal 12.24 or 12 hours rounded down.
35
     We divided 3,193.69 hours by 60 routes which equal 53.23 or 53 hours rounded down.


                                                         14
City Delivery Operations -                                                      DR-MA-12-003
 Lancaster Carrier Annex



                             Appendix C: Prior Audit Coverage

                                           Final
                         Report           Report
 Report Title            Number            Date                 Monetary Impact
 City Street          DR-AR-12-001       6/5/2012                 $6,840,240
 Delivery
 Efficiency –
 San Diego
 District
 Report              The audit concluded that the San Diego District could increase overall
 Results             efficiency and reduce about 83,943 workhours by adjusting its
                     operations and improving supervision during carrier street delivery.
                     Management agreed to the findings, recommendations, and monetary
                     impact.
 National             DR-MA-11-002      7/19/2011                 $88,192,138
 Assessment
 of City
 Delivery
 Efficiency
 2011 – Office
 Performance
 Report              We determined that 21 districts operated at a percent to standard
 Results             above the national average (mean) of 104.37 for the period January 1
                     through December 31, 2010. In other words, these districts used more
                     minutes per route than the average carrier route in the nation. If the
                     Postal Service’s least productive districts were brought up to the
                     average productivity level, they could save more than $88 million in 1
                     year. Management agreed with the findings and two of three
                     recommendations. Management disagreed with the data source for
                     our workhour savings.
 City Delivery       DR-AR-11-004        3/30/2011                  $65,362,706
 Efficiency –
 Chicago
 District
 Report              The Chicago District has opportunities for enhanced delivery
 Results             efficiency and reduced workhour costs. Our benchmarking
                     comparison determined the Chicago District’s percent to standard
                     measurement was 120.04 or 14.9 percentage points above the
                     national average of 105.14. In other words, the Chicago District used
                     about 16 minutes more per carrier route than the average carrier
                     route in the nation. Management agreed to the findings,
                     recommendations, and monetary impact.



                                               15
City Delivery Operations -                                                       DR-MA-12-003
 Lancaster Carrier Annex


 Report Title           Report           Report                 Monetary Impact
                       Number              Date
 City Delivery       DR-AR-11-003       1/20/2011                  $32,171,718
 Efficiency –
 Northern
 Virginia
 District
 Report              The Northern Virginia District was not operating at peak efficiency and
 Results             could reduce city delivery operating costs. Our benchmarking
                     comparison determined the Northern Virginia District percent to
                     standard measurement was 123.24, or 17 percentage points above
                     the national average of 105.05 percent. In other words, the district
                     used about 16 minutes more than the average carrier route in the
                     nation. Management agreed to the findings, recommendations, and
                     monetary impact.
 City Delivery       DR-AR-11-002       1/18/2011                  $93,143,986
 Efficiency
 Review –
 New York
 District
 Report              The New York District has opportunities for enhanced efficiency and
 Results             reduced workhours. Our benchmarking comparison determined the
                     New York District’s percent to standard measurement was 127.05, or
                     21.1 percentage points above the national average of 105.95 percent.
                     In other words, the district used about 37 minutes more than the
                     average carrier route in the nation. However, because of unique
                     delivery issues specific to the New York District, we used 25 minutes
                     per carrier route. Management agreed to the findings,
                     recommendations, and monetary impact.
 City Delivery       DR-AR-10-009        9/24/2010                  $27,374,309
 Efficiency
 Review –
 Atlanta
 District
 Report              The Atlanta District was not operating at peak efficiency and could
 Results             reduce city delivery operating costs. Although numerous factors were
                     involved, our review of 22 randomly selected delivery units confirmed
                     these inefficiencies and determined that district management did not
                     always (1) provide sufficient review and oversight of unit offices’
                     operating efficiencies and (2) coordinate with the mail processing
                     facility to ensure mail was timely received and in a condition that
                     promoted office operating efficiency. Eliminating time-wasting
                     practices and increasing the focus on efficiency could allow
                     management to reduce workhours. Management agreed with findings,



                                               16
City Delivery Operations -                                                          DR-MA-12-003
 Lancaster Carrier Annex


                     recommendations, and monetary impact.
 Report Title            Report        Report              Monetary Impact
                        Number           Date
 City Delivery       DR-AR-10-007     8/26/2010              $79,016,988
 Efficiency
 Review –
 Bay–Valley
 District
                     The Bay-Valley District was not operating at peak efficiency and could
 Report              save workhours and reduce city delivery operating costs. Although
 Results             numerous factors were involved, our review of 22 randomly selected
                     delivery units determined that district management did not always (1)
                     provide sufficient review and oversight of unit offices’ operating
                     efficiencies and (2) coordinate with mail processing facilities to ensure
                     mail was timely received and in a condition that promoted office
                     operating efficiency. Elimination of time-wasting practices and an
                     increased focus on efficiency could allow management to reduce
                     workhours. Management agreed to the findings, recommendations,
                     and monetary impact.
 City Delivery       DR-AR-10-006         7/1/2010                  $105,000,000
 Efficiency
 Review —
 Los Angeles
 District
 Report              The Los Angeles District was not operating at peak efficiency and
 Results             could save workhours and reduce city delivery operating costs.
                     Although numerous factors were involved, our review of 25 randomly
                     selected delivery units confirmed these inefficiencies and determined
                     that district management did not (1) provide sufficient review and
                     oversight of unit offices’ operating efficiencies and (2) coordinate with
                     the mail processing facility to ensure mail was timely received and in
                     a condition that promoted office operating efficiency. Elimination of
                     time-wasting practices and increased focus on efficiency could allow
                     management to reduce workhours. Management agreed to the
                     findings, recommendations, and monetary impact.
 Report Title             Report            Report                 Monetary Impact
                         Number              Date
 City Delivery       DR-AR-10-002        12/18/2009                   $21,308,433
 Efficiency
 Review
 – San
 Francisco
 Napoleon
 Street



                                                17
City Delivery Operations -                                                     DR-MA-12-003
 Lancaster Carrier Annex


 Station
 Report              The audit concluded that the Napoleon Street Station was not
 Results             operating at peak efficiency and management could reduce city
                     delivery costs. Our benchmarking comparison of five similar delivery
                     units showed this station used 54,975 workhours more than
                     necessary. We also found that management did not adjust workhours
                     to match changes in workload. Management agreed with our findings
                     and recommendations to correct the issues identified.




                                              18
City Delivery Operations -                                       DR-MA-12-003
 Lancaster Carrier Annex


                             Appendix D: Management’s Comments




                                            19
City Delivery Operations -        DR-MA-12-003
 Lancaster Carrier Annex




                             20
City Delivery Operations -        DR-MA-12-003
 Lancaster Carrier Annex




                             21
City Delivery Operations -        DR-MA-12-003
 Lancaster Carrier Annex




                             22
City Delivery Operations -        DR-MA-12-003
 Lancaster Carrier Annex




                             23
